 

NO.

 

IN THE SUPREME COURT OF THE UNITED STATES

 

SEAN BUSH — PETITIONER
VS

STATE OF FLORIDA — RESPONDENT

PROOF OF SERVICE
I, NANCY RYAN, do swear or declare that on this 15" day of October,
2020, as required by Supreme Court Rule 29 I have served the enclosed
CORRECTED PETITION FOR A WRITE OF CERTIORARI on the Attorney
General’s Office by electronic service to capapp@myfloridalegal.com, and mailed
to Sean Bush, #D24647, Florida State Prison, P.O. Box 800, Raiford, FL 32083.
I declare under penalty of perjury that the foregoing is true and correct.

Executed this 15" day of October, 2020.

O

Nancy Rya!

—

 
